 

STATE OF IDAHO
OFFICE OF THE ATTORNEY GENERAL
LAWRENCE G. WASDEN

September 16, 2019

Scott S. Harris

Supreme Court of the United States
Office of the Clerk

1 First Street, NE

Washington, D.C. 20543

Re: Ricks v. Idaho Contractors Board; U.S. Supreme Court No. 19-66
Dear Mr. Harris,

By way of this letter, Respondent, State of Idaho, hereby requests a thirty (30) day
extension of time from the current due date in which to file its brief in response to the petition for
a writ of certiorari in the above case. Pursuant to the Court’s September 6, 2019 letter,
Respondent’s current due date is October 7, 2019.

The extension is necessary because | have had insufficient time to review, research, and
draft an appropriate response due to my workload. Specifically, over the last thirty (30) days I
have traveled to Seattle, Washington and Washington D.C. for multi-day work-related meetings
and I have conducted an office-wide training for the Idaho Office of Attorney General. I am also
one of the primary attorneys on a statewide class action filed by the American Civil Liberties
Union alleging that the system of public defense in Idaho is unconstitutional in addition to being
counsel of record in sixteen (16) other cases assigned to our division through the Idaho Division
of Risk Management. In addition to those tasks and cases, I am also the in-house legal advice for
the State Department of Education and Superintendent of Public Instruction, and the Idaho
Division of Human Resources.

I spoke with Petitioner’s counsel about this request and a copy of this letter was mailed to
Petitioner’s counsel at:

Eric S. Baxter, The Becket Fund for Religious Freedom
1200 New Hampshire Ave. NW, Ste. 700
Washington, D.C. 20036.

An electronic version was also sent to counsel at ebaxter@becketlaw.org.

 

Civil Litigation Division
P.O. Box 83720, Boise, Idaho 83720-0010
Telephone: (208) 334-2400, FAX: (208) 854-8073
Located at 954 W. Jefferson 2nd Floor
Thank you for your consideration of this request.

Sincerely,

Leslie M. Hayes

Deputy Attorney General
LMH:em
ce:
